<html>
<title> - ICE WORKSITE ENFORCEMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                ICE WORKSITE ENFORCEMENT--UP TO THE JOB?

=======================================================================


                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 26, 2011

                               __________

                            Serial No. 112-2

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
63-875                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TOM REED, New York                   LINDA T. SANCHEZ, California
TIM GRIFFIN, Arkansas                DEBBIE WASSERMAN SCHULTZ, Florida
TOM MARINO, Pennsylvania
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            JANUARY 26, 2011

                                                                   Page

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     3
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......     8

                               WITNESSES

Mr. Kumar Kibble, Deputy Director, U.S. Immigration and Customs 
  Enforcement, Department of Homeland Security, Washington, DC
  Oral Testimony.................................................    79
  Prepared Statement.............................................    81
Mr. Mark Krikorian, Executive Director, Center for Immigration 
  Studies, Washington, DC
  Oral Testimony.................................................    89
  Prepared Statement.............................................    91
Mr. Michael W. Cutler, Senior Special Agent (Ret.), Immigration 
  and Naturalization Service, New York District Office
  Oral Testimony.................................................    95
  Prepared Statement.............................................    98
Mr. Daniel Griswold, Director, Center for Trade Policy Studies, 
  Cato Institute, Washington, DC
  Oral Testimony.................................................   101
  Prepared Statement.............................................   104

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............     5
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............    11

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from Lynn Shotwell, Executive Director, American Council 
  on International Personnel (ACIP)..............................   126


                       ICE WORKSITE ENFORCEMENT--
                             UP TO THE JOB?

                              ----------                              


                      WEDNESDAY, JANUARY 26, 2011

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, Smith, Poe, Gowdy, Ross, 
Lofgren, Pierluisi, and Jackson Lee.
    Staff Present: (Majority) George Fishman, Subcommittee 
Chief Counsel; Marian White, Clerk; and Tom Jawetz, Minority 
Counsel.
    Mr. Gallegly. Good afternoon, everyone.
    One of the things about chairing a Committee, I like to see 
my trains run on time. And today is probably a better example 
than most, when we are fighting the weather. And we are 
expecting votes on the floor here in the next 30 to 45 minutes, 
and there will be a series. So I want to try to get as much in 
before we have to break as possible.
    I welcome everyone here today and just say that the 
Subcommittee on Immigration Policy and Enforcement is holding 
its first hearing of the 112th Congress. I would like to take 
this opportunity to welcome the Members of the Subcommittee as 
we begin our work this session.
    I especially want to welcome Congresswoman Lofgren. I know 
she is on her way. I have worked with Zoe for many years and 
she is a very capable person. Ms. Lofgren, as you know, was the 
Chairwoman during the previous two Congresses, and she brings 
with her a great deal of expertise on the issues under the 
jurisdiction of this Subcommittee.
    Let me now turn to today's hearing, which will be an 
overview of ICE's worksite enforcement efforts.
    We are in the midst of a job depression more severe than 
most Americans have witnessed in their lifetimes. Over 14 
million Americans are currently unemployed. The most vulnerable 
American workers have been especially hard-hit. The official 
unemployment rate for native-born Americans without a high 
school degree exceeds well over 20 percent, and their 
underemployment rate exceeds 32 percent. That is almost a third 
of that entire class of workers.
    And yet, at the same time, millions of illegal immigrants 
hold jobs. Even when low-skilled Americans can find jobs, their 
wages are depressed by illegals and other low-skilled 
immigration. Harvard economist George Borjas has estimated that 
immigration in recent decades has reduced the wages of native-
born workers without a high school degree by almost 9 percent.
    The Immigration Reform and Control Act of 1986 made it 
unlawful for employers to knowingly hire or employ immigrants 
not eligible to work and required employers to check the 
identify and work eligibility documents of all new employees.
    Unfortunately, IRCA simply asked employers to see if the 
documents presented by their employees reasonably looked 
genuine. The easy availability of millions of counterfeit 
documents have made a mockery of this process. Compounding the 
flawed design of IRCA, first the INS and then U.S. Immigration 
and Customs Enforcement failed to vigorously enforce the 
employer sanctions law.
    Then, in 2006, the Bush administration reinvigorated 
worksite enforcement. It placed a new focus on criminal 
prosecutions of both illegal immigrant workers who steal 
Americans' identities and employers who knowingly employ 
illegal immigrants. The number of civil arrests increased from 
445 in the year 2003 to 5,184 in the year 2008. And the number 
of criminal arrests increased from 72 to 1,103. And the number 
of criminal convictions increased from 156 to 908.
    The net result of this new strategy was more jobs and 
higher wages for American and other legal workers. One employer 
subject to a worksite enforcement action raised wages by more 
than a dollar an hour and hired 200 legal workers. At another, 
400 legal workers applied for the 361 jobs left by deported 
illegal immigrants.
    As Chairman Smith will elaborate, the Obama administration 
has relaxed the get-tough strategy of the Bush administration's 
ICE director, Julie Myers. ICE still audits the employment 
records of employers, but what happens to the illegal workers 
that it uncovers?
    Minnesota Public Radio reported about the aftermath of an 
audit that identified 1,200 illegal immigrants in well-paying 
janitorial jobs. ``The most important rumor to dispel was that 
the workers were arrested.'' In the story, a retired ICE 
official wondered ``how effective this enforcement will be, 
considering the workers are free to move into other jobs.'' And 
a representative of the Immigration Law Center believes that 
the vast majority of the 1,200 illegal workers will ``probably 
try to wait it out, hoping for the laws to change so they can 
work here legally.''
    The Obama administration's strategy clearly does a grave 
disservice to American workers. At today's hearing, we will 
hear from both ICE and its critics as to the optimal worksite 
enforcement strategy. The result of ICE's efforts must be that 
those jobs that are available go to Americans and to legal 
residents.
    At this time, I would like to yield to my good friend. And, 
as I said in my opening statement, I have had the honor of 
working with Zoe Lofgren for many years. I have great respect 
for her. And while we don't always agree on every issue, I 
think we have worked in a very civil way, and our differences 
have never been personal.
    So, with that, I would yield to my friend and neighbor from 
California, Ranking Member Zoe Lofgren.
    Ms. Lofgren. Thank you very much. And I want to 
congratulate you, Mr. Gallegly, as the new Chair of this 
Committee and Mr. King as Vice-Chair and, certainly, Mr. Smith 
as Chair of the Committee.
    Today's hearing is the first of many I expect we will have 
on the role that immigration plays in the U.S. economy and its 
impact on American jobs. And I hope and actually do expect, as 
you have just noted, that throughout these hearings, as with 
the new Congress, our two sides of the aisle will put aside 
heated rhetoric and work to solve some of the intractable 
problems that the country has been facing for far too long.
    I think everyone agrees that our immigration laws are 
broken. For decades, these laws have not met the needs of our 
country--not of American businesses, American workers, or 
American families. And it is these broken laws that have led us 
to the morass we now find ourselves in.
    Rather than fix those laws, like one would fix a broken 
car, some may now be suggesting that we just step on the pedal 
harder. But you can't keep enforcing a broken system without 
doing real damage. The truth is that continuing to increase 
enforcement without reforming the broken system will actually 
hurt the economy and American workers. Yes, increased 
enforcement may open up a particular job here or there, but 
this approach will actually destroy many more jobs than it 
creates.
    What we often hear from colleagues on the other side of the 
aisle is that this issue boils down to simple math: that every 
time we find and deport an undocumented worker, we open a job 
for a native worker. But this math is bad math. It simply does 
not take into account the complex realities of our economy.
    We held a hearing last September on our agricultural labor 
force, which is composed mostly of unauthorized workers. Under 
their simple math, the wrong math, if we just removed these 
workers, Americans would run to fill those jobs. But that is 
not even remotely true. Experts from all sides agree that, even 
in this poor economy, Americans are not returning to the fields 
as migrant workers to pick tomatoes, apples, or strawberries. 
And the increase in wages necessary to get U.S. workers to go 
to the fields as migrants would hike production costs so high 
that U.S. food products would no longer be competitive with 
imported products. The end result would be the closure of 
American farms, a less secure America, and mass offshoring of 
millions and millions of U.S. jobs.
    Let's be clear here. If we just ramp up enforcement without 
reforming the system, job losses in agriculture would not be 
confined to the fields. The Department of Agriculture reports 
that every on-farm job supports or creates about 3.1 upstream 
and downstream jobs--jobs in manufacturing, seed production, 
processing, packaging, distribution, and accounting--that are 
overwhelmingly filled by United States workers. The truth is 
that every time we deport a farm worker, we also deport three 
other jobs that are held by Americans.
    This is the real math we need to heed. Enforcement without 
reform may open up a job here or there, only to destroy four 
others over here.
    Over the past 4 years, this Subcommittee held dozens of 
hearings on our immigration system. We heard time and time 
again from economists, business leaders, experts from all 
backgrounds and across ideological lines that an enforcement-
only approach is damaging to businesses and workers. Some are 
now asking us to pay no attention to that testimony. They are 
asking us to simply step on the gas, whatever the damage.
    Our laws need to be fixed so that they can work for our 
economy, our people, and our country. Yes, we need to secure 
our borders and make sure that only authorized workers are 
employed in the United States. But we also need an immigration 
system that meets the needs of our economy, one that grows when 
and where we need workers and shrinks when and where we don't. 
Without that, we will keep spending billions of taxpayer 
dollars enforcing broken laws.
    Some argue we need to enforce our laws and secure our 
border before we can ever discuss reforms to our broken system. 
But the truth is that every day that passes is a day in which 
we pursue an enforcement-only approach, and that is damaging to 
our country.
    I have additional comments, Mr. Gallegly, but, given that 
the bells have rung, I would ask unanimous consent to put the 
additional comments in the record. And perhaps we can hear from 
some of our witnesses before the vote.
    Mr. Gallegly. Without objection.
    Ms. Lofgren. I yield back.
    [The prepared statement of Ms. Lofgren follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Now, I would yield to the gentleman, the 
Chairman of the full Committee, my good friend from Texas, 
Lamar Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    And Mr. Chairman, congratulations to you on the first 
hearing of this Subcommittee. You have mentioned some 
compliments directed toward Ms. Lofgren, the gentlewoman from 
California, in her previous role as Chair of this Subcommittee. 
She ought to reread those comments because they were very 
complimentary even though she may have missed some of them.
    I also happen to agree with something she said at the very 
end of her opening statement, and that is that only authorized 
workers should be employed. And we can certainly agree with 
that.
    I do have an opening statement. I will try to get through 
it fairly quickly. And, as you pointed out, Mr. Chairman, I 
think we have a couple of votes, but hopefully our witnesses 
won't mind waiting for us to vote and return.
    With unemployment over 9 percent for 20 months, jobs are 
scarce and families are worried. According to the Pew Hispanic 
Center, 7 million people are working in the United States 
illegally. These jobs should go to legal workers, and securing 
these jobs for American and legal immigrant workers should be a 
priority of the Federal Government.
    The Office of Immigration and Customs Enforcement, ICE, 
should enforce the law and conduct more worksite enforcement 
activities. Each time ICE arrests, detains, or deports an 
illegal worker, it creates a job opportunity for an American 
worker. Each time the Department of Justice brings a criminal 
action against an employer who knowingly hired illegal workers, 
it sends a powerful message that their employment will not be 
tolerated.
    Unfortunately, worksite enforcement has plummeted under the 
Obama administration. Administrative arrests have fallen 77 
percent from 2008 to 2010. Criminal arrests have fallen 60 
percent. Criminal indictments have fallen 57 percent, and 
criminal convictions have fallen 66 percent. And the number of 
the investigative hours devoted to worksite enforcement has 
fallen by 34 percent in the last 2 years.
    How does the Administration justify these policies? With 
millions of Americans unemployed, it is hard to imagine a worse 
time to cut worksite enforcement efforts by more than half.
    ICE will testify today that it has increased the number of 
audits of companies' employment eligibility verification forms 
they filled out for their employees. The number of audits has 
increased from 503 in 2008 to over 2,000 in 2010, and the 
amount of fines has gone up, as well.
    However, these audits are of questionable benefit. The GAO 
has found that, quote, ``ICE has faced difficulties in settling 
and collecting final fine amounts that meaningfully deter 
employers from knowingly hiring unauthorized workers. ICE 
officials told us that, because fine amounts are so low, the 
fines do not provide a meaningful deterrent. The amount of 
mitigated fines may be, in the opinion of some ICE officials, 
so low that they believe that employers view the fines as a 
cost of doing business, making the fines an ineffective 
deterrent for employers who attempt to circumvent the law,'' 
end quote.
    Stewart Baker, the Department of Homeland Security's 
Assistant Secretary for Policy Development in the prior 
Administration, said that, quote, ``the fines are ridiculously 
low, sometimes less than a New York City parking ticket.''
    And what happens to the illegal workers who are seldom 
arrested? They go down the street and knock on the door of the 
next employer and take possibly another job from an American 
worker.
    Critics of worksite enforcement claim that illegal 
immigrants hold jobs that Americans won't do. But even in the 
agriculture industry, where amnesty supporters insist we need 
illegal workers, 50 percent of the agriculture jobs are held by 
citizens and legal immigrants. Statements that are Americans 
are not willing to do these jobs demeans the hardworking 
Americans who actually do this work on a daily basis.
    Citizens and legal immigrants should not be forced to 
compete with illegal workers for jobs. The Administration 
should put the interest of American workers ahead of illegal 
workers. All the Administration has to do is conduct worksite 
enforcement. Twenty-six million Americans who are unemployed or 
underemployed are asking the question, ``Mr. President, why 
aren't you protecting American jobs?''
    Thank you, Mr. Chairman. And I yield back.
    Mr. Gallegly. Thank you, Mr. Chairman.
    I would yield just a moment to the Ranking Member for a 
unanimous consent request.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I do request unanimous consent to submit a series of 
statements prepared for today's hearing from leaders in the 
labor, faith, refugee, and immigration advocacy community. And, 
in lieu of the time, I would simply submit the lists and 
statement to the record.
    Mr. Gallegly. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Gallegly. I see that Mr. Conyers isn't here, so what I 
would like to do, at this point, is introduce our witnesses. 
Then we are going to have to recess to go over and vote.
    I don't know how many--do you know how many votes we have?
    So it is about probably 45 minutes to an hour. So, if you 
folks can stand by.
    First of all, we are honored to have a very distinguished 
group of witnesses today.
    Mr. Kumar Kibble is the deputy director of the U.S. 
Immigration and Customs Enforcement. He serves as the chief 
operating officer for the principal investigative agency of the 
Department of Homeland Security. Mr. Kibble began his 
government career in 1990 as an infantry officer in the U.S. 
Army, 82nd Airborne. He received his bachelor of science degree 
from the U.S. Military Academy at West Point.
    We are pleased to have you here, sir.
    I think most of us know Mark Krikorian. Mr. Krikorian is 
executive director of the Center for Immigration Studies, a 
nonprofit, nonpartisan research organization in Washington, 
D.C., which examines and critiques the impact of immigration on 
the United States. He is the author of ``The New Case Against 
Immigration, Both Legal and Illegal.'' Mr. Krikorian holds a 
master's degree from the Fletcher School of Law in diplomacy 
and a bachelor's degree from Georgetown University.
    Welcome, Mr. Krikorian.
    Mr. Michael Cutler is a retired senior special agent with 
the Immigration and Naturalization Service, New York District 
Office. He joined the INS in 1971 as an immigration inspector 
at JFK airport.
    In fact, I think that was one of the first places I met 
you, along the line.
    Mr. Cutler has served in many positions, including as 
senior special agent, and was assigned to the Organized Crime 
Drug Enforcement Task Force. Mr. Cutler retired from the INS in 
February 2002 after a career that spanned more than 30 years.
    And our last witness, Mr. Daniel Griswold, is the director 
of the Center for Trade Policy Studies at Cato Institute here 
in Washington, D.C. He is the author of the Cato book, ``Mad 
About Trade: Why Main Street Should Embrace Globalization.'' He 
received his bachelor's degree in journalism from the 
University of Wisconsin at Madison and a diploma in economics 
and a master's degree in the politics of the world economy from 
the London School of Economics.
    So you see we have a very distinguished group of witnesses 
today. And I wish we could start the testimony now, but because 
we are about 7 minutes away from a vote we will recess and 
reconvene. And, hopefully, there will be some Members that will 
be able to get back.
    So, with that, we will recess until we finish voting. Thank 
you.
    [Recess.]
    Mr. Gallegly. I call the Subcommittee back to order.
    Thank you for your patience. The storm is moving in, so we 
are going to move on as quickly as we can. And we have lost 
several of our Members, but we have the most important one,so.
    Mr. Kibble, we will recognize you. For the sake of trying 
to expedite things, I would ask you to please work with us on 
the 5-minute thing, and appreciate your patience. Thank you.

 TESTIMONY OF KUMAR KIBBLE, DEPUTY DIRECTOR, U.S. IMMIGRATION 
   AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY, 
                         WASHINGTON, DC

    Mr. Kibble. Chairman Gallegly, distinguished Members of the 
Subcommittee, to the extent they are here, on behalf of 
Secretary Janet Napolitano and Assistant Secretary John Morton, 
I want to thank you for the opportunity to discuss ICE'S 
worksite enforcement efforts.
    DHS is pursuing an aggressive strategy with respect to 
worksite enforcement. Our strategy focuses on employers that 
knowingly violate the law, deterring those who are tempted to 
violate the law, and offering easy tools, like E-Verify, to 
help employers comply. We do this through the robust use of I-9 
inspections, civil fines, and debarment.
    The success of our approach to worksite enforcement is 
clear in the numbers. In fiscal year 2010, ICE opened a record 
2,746 worksite enforcement investigations. This more than 
doubled the number from 2008. We also issued more notices of 
inspection to employers, quadrupling the number from 2008. We 
issued a record of final orders directing businesses to pay 
fines amounting to just under $7 million; saw a record $36.6 
million in judicial fines and forfeitures; and debarred a 
record 97 unscrupulous businesses and 49 individuals, 
preventing them from doing business with the government.
    Our approach also prioritizes the criminal prosecution of 
the worst employers that knowingly hire illegal workers; abuse 
and exploit their workers; engage in harboring, smuggling, and 
trafficking of workers; and also facilitate document or benefit 
fraud.
    The main reason people come to the United States illegally 
is for the opportunity to work. By focusing on employers who 
provide jobs to illegal aliens, we are attacking one of the 
root causes of illegal immigration. By following our tough 
approach, we are creating a culture of compliance--a culture in 
which employers seek to get on the right side of the law and 
hire lawful workers.
    As the clearest example that this approach is working, look 
to Tyson Foods. Just last week, Tyson became one of ICE's IMAGE 
partners. That program, or the ICE Mutual Agreement Between 
Government and Employers, is a partnership that helps big and 
small companies maintain a lawful workforce and protect 
themselves from fraud.
    Tyson is a Fortune 500 company, with 115,000 employees, and 
is the world's largest meat processor. They are a leader of 
industry. A decade ago, they were investigated and indicted for 
their hiring practices. Today, they proudly stand with us as an 
example of a company that knows that getting right with the law 
is good for business, good for workers, and good for the 
country. We at ICE can't wait to find the next Tyson Foods.
    In short, our approach is working.
    I am aware of the concerns raised about ICE's overall 
number of administrative arrests at worksites, and I would 
respond with a few points.
    First, our number of administrative arrests at worksites 
cannot and should not be considered in a vacuum. Our worksite 
efforts have been part of a broader enforcement strategy that, 
for the last 2 years, has resulted in the removal of more 
illegal aliens from the United States than ever before. 
Moreover, a record number of those were criminal convicts. 
Whether we are apprehending people at worksites or apprehending 
them elsewhere, we are apprehending and detaining and removing 
more people than ever in the Nation's history.
    Second, we are more strategic in our approach than ever. It 
costs approximately $12,500 to arrest, detain, and remove an 
individual from the United States. So we have focused our 
limited resources wisely and successfully removed a record 
number of criminals last year. Our approach has made 
communities safer.
    Finally, we have more resources along the Southwest border 
than ever. That is more staffing, technology, and 
infrastructure protecting the border and slowing the flow of 
illegal immigration.
    In short, we are committed to an overall approach to 
enforcement that is working. We look forward to continuing to 
build on our current successes and working with you through the 
remainder of this fiscal year and beyond.
    Thank you again for this opportunity, and I welcome any 
questions you may have.
    [The prepared statement of Mr. Kibble follows:]
                   Prepared Statement of Kumar Kibble
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Gallegly. Thank you very much, Mr. Kibble. And thank 
you for being so succinct with your testimony.
    Mr. Krikorian?

  TESTIMONY OF MARK KRIKORIAN, EXECUTIVE DIRECTOR, CENTER FOR 
              IMMIGRATION STUDIES, WASHINGTON, DC

    Mr. Krikorian. Thank you, Mr. Chairman.
    There are 14.5 million Americans looking for work and 26 
million who are unemployed or underemployed. Yet, immigration 
policy takes no note of these facts.
    According to a report just last week from Northeastern 
University, over the past 2 years, employment declined in the 
United States by more than 6 million jobs, and yet, more than 1 
million new immigrants got jobs during that time.
    Only about a third of those new immigrant job holders were 
illegal immigrants. Now, what that means is that legal 
immigration is a big part of this disconnect between employment 
and immigration enforcement. But that is not something that 
this Administration or any other can deal with on its own.
    But the one-third of those new job holders who are illegal 
immigrants is a different matter altogether. And the problem 
there is not a badly designed immigration system but, rather, a 
lack of enforcement of existing laws by the executive branch.
    As part of the current Administration's April 2009 worksite 
enforcement strategy, real worksite enforcement has declined 
significantly, as Chairman Smith spelled out in his opening 
statement. What has increased in this area is audits of 
employee I-9 forms and the number and total dollar amount of 
fines against employers.
    Now, such audits and fines are by no means a bad thing, and 
increasing them has been a positive step. The problem is, they 
are only good as far as they go, and they don't go that far.
    By limiting worksite enforcement to the personnel office, 
the current strategy foregoes the benefits of a full-spectrum 
enforcement approach that includes both audits and raids, both 
fines and arrests, focusing on both employers and employees. 
One colleague observed to me just yesterday that the current 
ICE focus on audits is as effective as the FBI doing gang 
suppression by just giving talks at high schools, without 
actually arresting any gang members.
    The benefits of full-spectrum enforcement are clear from 
recent experience. First of all, it opens up jobs for 
Americans. As an example there--and I spell it out more in my 
written testimony--is the Smithfield pork plant in Tar Heel, 
North Carolina, which was raided in 2007. As a result of that 
and the removal of illegal workers there, Americans were able 
to be hired.
    Initially, when the plant opened, American workers were 
most of the staff. But, over time, slowly but steadily, 
Americans were removed, replaced by illegal workers. And what 
happened was, as a result of the raids, just the Black American 
share of the workforce went from 20 percent before the raids to 
60 percent after the raids.
    A second benefit of comprehensive worksite enforcement, 
instead of today's more selective and limited approach, is that 
it raises the wages of blue-collar American workers. And we 
have seen this very clearly as a result of the raids on the six 
Swift meatpacking plants in 2006. And what happened after those 
raids was that the level of wages and bonuses at those plants 
increased by 8 percent as a result of that raid. It was an 8 
percent raise for legal workers because of that immigration 
raid.
    A third benefit of full-spectrum enforcement is that it is 
necessary to gather evidence on crooked employers. In other 
words, it is tough to go after employers if you are not 
arresting and not doing raids and arresting the illegal 
workers, who are then able to provide information.
    We saw that most clearly in the Agriprocessors meatpacking 
plant raid in Iowa. Before the raid, State officials had been 
trying to gather information on the various abuses in that 
plant and had really gotten nowhere. As a result of the raid, 
it tore away the curtain and exposed the plant's squalor and 
mass illegality, leading to arrests of management for criminal 
child labor and other violations. Merely auditing that plant's 
personnel records, while scrupulously avoiding any arrests of 
illegal immigrants, might well have meant that, today, that 
Agriprocessors plant would still be abusing children on its 
factory floor.
    And, finally, a full-spectrum worksite enforcement approach 
is necessary to turn off the magnet of jobs that attract 
illegal immigrants in the first place. The point of enforcement 
is not to arrest and deport every illegal worker and punish 
every illegal employer. The point is to make it clear to them 
that there is a significant chance that could happen, so you 
end up with voluntary compliance with the law. This is the way 
it works in any other kind of enforcement area--taxes or 
traffic laws or what have you.
    But if illegal immigrants are not being arrested because we 
are not having raids, we don't have a full-spectrum worksite 
enforcement, there just isn't that much for workers or illegal 
workers or illegal employers to fear. And, in a sense, what we 
are doing is we are sending the signal that it is not really 
that big a deal to be an illegal alien working or to be hiring 
illegal immigrants. And when we send that kind of signal, 
illegal workers and illegal employers understand what we are 
telling them, and they continue doing what they are doing.
    Thank you.
    [The prepared statement of Mr. Krikorian follows:]
                  Prepared Statement of Mark Krikorian
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Gallegly. Thank you, Mr. Krikorian.
    Mr. Cutler?

 TESTIMONY OF MICHAEL W. CUTLER, SENIOR SPECIAL AGENT (RET.), 
   IMMIGRATION AND NATURALIZATION SERVICE, NEW YORK DISTRICT 
                             OFFICE

    Mr. Cutler. Thank you, Mr. Chairman. I would like to thank 
both you and your colleagues for your leadership in immigration 
enforcement and for this invitation to be here today.
    The effective enforcement of our Nation's immigration laws 
and the creation of an immigration benefits program that has 
real integrity are vital components of the war on terror and in 
efforts to protect our Nation and our citizens from various 
transnational criminal organizations such as the Mexican drug 
cartels. Simply stated, we cannot protect our Nation or our 
citizens from these and other threats while our borders remain 
porous and millions of illegal aliens, whose true identities 
are unknown and unknowable, live and work in communities 
throughout the United States.
    Our Nation's immigration laws can only be effectively 
enforced if all elements of the enforcement program and the 
immigration benefits program operate cooperatively in a unified 
system.
    The majority of illegal aliens enter our country seeking 
unlawful employment. Aliens who run our borders often pay 
pernicious smugglers, who may force them to facilitate the 
smuggling of narcotics into our country. The revenue that the 
smuggling trade provides finances criminal organizations 
throughout the world.
    Illegal aliens are likely to pay other criminals, such as 
fraud document vendors and identity thieves as well, in order 
to secure identity documents.
    Many illegal aliens are young men who, at least initially, 
leave behind their wives and girlfriends. This large population 
of illegal aliens provides potential clientele for houses of 
prostitution that leads to more crime, more human trafficking, 
and more unspeakable exploitation.
    Effective law enforcement requires deterrence to be an 
integral part of the strategy. Effective worksite enforcement 
must seek to deter unscrupulous employers from intentionally 
hiring illegal aliens, but it must also seek to deter illegal 
aliens from entering our country in the first place looking for 
jobs.
    The passage of the Immigration Reform and Control Act, or 
IRCA, of 1986 included provisions that, for the first time, 
deemed the intentional hiring of illegal aliens to be a 
violation of law. It represented a balanced approach to 
deterring the employment of illegal aliens by penalizing the 
employers. Today, however, what we are seeing is an effort to 
simply go after the employer and not the illegal alien. So this 
doesn't have the balanced approach that the law should 
provide--that field operations should provide.
    Effective worksite enforcement investigations would take 
significant pressure off our Nation's porous borders and would 
also staunch the flow each year of tens of billions of dollars 
of money that are wired or otherwise transmitted by illegal 
aliens from the United States to their home countries, thereby 
adding to our burgeoning national debt. This is money that is 
not spent in the United States, money that is not invested in 
the United States, money that is not earned by United States 
citizens or resident aliens.
    And at the present time, as we have heard today, so many 
Americans are having an increasingly difficult time of trying 
to support themselves and their families. Everyone talks about 
the need to create new jobs, but if the jobs are created but 
then don't go to American citizens, our citizens and our Nation 
don't benefit from these new jobs.
    While I am not an economist, I am convinced that increasing 
resources to the worksite enforcement program would save our 
Nation's economy more money than would be invested in such an 
increase in resources. An effective worksite program would also 
provide important national security and community safety 
benefits.
    Terrorists and criminal aliens often seek employment as a 
means of embedding themselves in a community. Terrorists and 
criminals are often described by the jobs that they held at the 
time that they were arrested, jobs that provided them with 
money, camouflage, and mobility. Aliens engaged in terrorism or 
criminal activities often seek to acquire lawful immigration 
status by committing immigration benefit fraud. And this is an 
issue that I hope that you will delve into in detail in future 
hearings.
    But it is important to note that, as an INS special agent, 
I often apprehended criminal aliens on the jobs where they 
worked. These aliens had lengthy conviction records and may 
well have been previously deported, but they were working 
illegally in jobs that enabled them to hide in plain sight.
    Leaders at the DHS often note their concerns about illegal 
aliens working at critical infrastructure, and they talk about 
airports and military bases and so forth. Well, recently, 
officials at the DHS raised concerns about Mumbai-style attacks 
being carried out in the United States that would target hotels 
or places where large numbers of people congregate. And there 
was also stated concerns about an al Qaeda operation that would 
seek to poison people. Given that, it would logically follow 
that critical infrastructure should also include food-
processing plants.
    In my nearly 40 years of involvement with the immigration 
issue, I have not seen any Administration distinguish itself by 
effectively securing our borders or enforcing our immigration 
laws. However, I believe the current Administration has all but 
rolled out the welcome mat to illegal aliens, frankly. High-
level members of the Administration have stated that illegal 
aliens would not face the threat of arrest in most of these 
worksite investigations.
    Last week, the Wall Street Journal talked about the 
Employment Compliance Inspection Center that is supposed to 
facilitate the auditing of I-9's and supporting documents. 
Again, going after that is worthwhile, but if you are missing 
the idea of arresting the illegal aliens, then you are missing 
the boat.
    Furthermore, the President and Members of both houses of 
Congress have spoken frequently about the need to place illegal 
aliens on a pathway to U.S. citizenship, thereby all but 
declaring that illegally entering our country should be a 
prerequisite for United States citizenship.
    I also want to touch briefly on the lawsuit filed by the 
Justice Department against the State of Arizona to try to block 
Arizona from enforcing its own laws. Again, the message is a 
dangerous one, because it offers more encouragement to illegal 
aliens and those foreign nationals who aspire to become illegal 
aliens in our country.
    If morale was low when I was an INS special agent because 
of the reasons that we discussed earlier, the lack of resources 
and so forth, then I would imagine morale must be incredibly 
low at this point in time.
    Final point: Prior to the Second World War, the Department 
of Labor was responsible for enforcing our immigration laws. 
The concern was that an influx of large numbers of foreign 
workers would drive down wages and worsen the working 
conditions of the American worker. And, indeed, our laws still 
reflect that it is illegal to hire foreign workers if, in so 
doing, harm is done to the American workforce.
    Effective worksite enforcement efforts can protect our 
Nation and our workers and turn off the power to the magnet 
that draws so many illegal aliens to our country. The time has 
long since come for our government to actually provide 
resources and leadership to properly enforce these important 
provisions of our laws. And I am gratified that you are holding 
this hearing.
    I thank you for the opportunity.
    [The prepared statement of Mr. Cutler follows:]
                Prepared Statement of Michael W. Cutler
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Gallegly. Thank you, Mr. Cutler.
    Mr. Griswold?

TESTIMONY OF DANIEL GRISWOLD, DIRECTOR, CENTER FOR TRADE POLICY 
            STUDIES, CATO INSTITUTE, WASHINGTON, DC

    Mr. Griswold. Chairman Gallegly, Chairman Smith, Ranking 
Member Lofgren, Members of the Committee, thank you very much.
    I am confident we all share the goals of reducing illegal 
immigration, securing our borders against those who would do us 
harm, and promoting economic growth and job creation. With 
those objectives in mind, I believe that focusing primarily on 
worksite enforcement will continue to be an expensive 
distraction until we reform our immigration laws to reflect the 
realities of America's 21st-century labor market.
    Our policy of relying solely on enforcement of current 
immigration law has failed. This is true for both border and 
interior enforcement. Since 1992, our spending on border 
enforcement has gone up more than 700 percent. The number of 
agents at the border has gone up fivefold. Since the 
Immigration Reform and Control Act of 1986, U.S. employers have 
been subject to fines for knowingly hiring undocumented 
workers. Yet, during two decades of increased enforcement, the 
number of illegal immigrants in this country has roughly 
tripled.
    Our enforcement-only approach is at odds with the economic 
and demographic realities of our dynamic American economy. Our 
economy routinely creates hundreds of thousands of net new jobs 
each year that require only short-term, on-the-job training. I 
am talking about home health aides, food preparation and 
serving workers, retail salespersons, landscaping and 
groundskeeping workers, waiters and waitresses.
    At the same time, the number of Americans who have 
traditionally filled such jobs continues to shrink. Over the 
last decade, the number of adult Americans in the workforce 
without a high school diploma has dropped by 3 million, and 
that number is going to continue to drop. It is good news, but 
it adds to this problem.
    Immigrants fill the growing gap between expanding low-
skilled jobs and the shrinking pool of native-born Americans 
who want to fill them. Immigrant workers enable important 
sectors of the U.S. economy, such as retail, agriculture, 
landscaping, restaurants and hotels, to expand, to attract 
investment, and to create middle-class jobs in management, 
bookkeeping, marketing, and other areas that employ native-born 
Americans.
    It is misleading to assert that every low-skilled immigrant 
we can round up and deport will mean jobs for an unemployed 
American. The real economy doesn't work that way. Low-skilled 
immigrants, whether legal or illegal, do not compete directly 
against the large majority of American workers.
    American companies hire immigrant workers to fill millions 
of low-skilled jobs because there are simply not enough 
American workers willing to fill those same jobs. The pay and 
working conditions in many of these jobs do not match the 
qualifications and aspirations of the large majority of 
Americans currently looking for employment in our recovering 
economy.
    We cannot enforce our way out of unemployment. There is no 
causal relationship between the inflows of immigration and 
higher overall unemployment in the U.S. economy. If anything, 
more aggressive enforcement against low-skilled immigration 
will arguably have a negative effect on our economy and the 
jobs and incomes of American households.
    Removing millions of low-skilled workers from our labor 
force through enforcement would reduce the incentives for 
investment in the affected industries. It would reduce the 
relative job openings in more skilled positions, disrupting 
employment for native-born Americans.
    In agriculture, for example, the USDA estimates there are 
3.1 related jobs off the farm for every job on the farm. 
Eliminating the on-farm jobs would put at risk many more jobs 
paying middle-class wages and employing native-born Americans.
    A 2009 Cato study found that a 30 percent reduction in low-
skilled immigration to the United States through more vigorous 
interior enforcement would cause a drop in the incomes of 
American households by $64 billion a year. In contrast, the 
same study estimated that immigration reform that allowed more 
low-skilled immigrants to enter the United States legally could 
boost the incomes of American households by $180 billion a 
year.
    The best approach to reducing illegal immigration would be 
to expand opportunities for legal immigration while targeting 
enforcement against terrorists, criminals, and others who 
continue to operate outside the system.
    We know from experience that legal immigration, if allowed, 
will crowd out illegal immigration. Here we can learn two 
valuable lessons from the Bracero program, which allowed 
Mexican workers to enter the United States temporarily from 
1942 to 1964.
    One lesson is that temporary workers should be given 
maximum mobility to change employers. The fatal flaw of the 
Bracero program was that it tied workers to specific employers 
as a condition of the visa. This gave too much leverage to 
employers, resulting in abuses that led Congress to shut down 
the program.
    The more positive lesson from the Bracero program is that, 
for all its shortcomings, it did provide a legal alternative to 
illegal immigration.
    Early in the 1950's, we were apprehending a million people 
a year at the border because the program offered an 
insufficient number of visas to meet the labor demands of a 
growing U.S. economy. Instead of merely redoubling our 
enforcement efforts, Congress dramatically increased the number 
of visas to accommodate demand. The result: Apprehensions at 
the border dropped more than 90 percent.
    Back then, as we could expect now, foreign-born workers 
rationally chose the legal path to entry when it was available. 
When the Bracero program was abolished in 1964, legal 
immigration began to rise inexorably, and that has continued to 
the present time.
    To sum up, Mr. Chairman, a program of legalization would 
transform the enforcement debate. Instead of wasting resources 
on a futile effort to root out millions of low-skilled 
immigrant workers who are productively contributing to our 
Nation's economy, we could focus our enforcement efforts on 
apprehending those who want to do us harm.
    Large-scale illegal immigration will end only when 
America's immigration system offers a legal alternative, 
consistent with the underlying realities of our labor market.
    Thank you.
    [The prepared statement of Mr. Griswold follows:]
                 Prepared Statement of Daniel Griswold
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Gallegly. Thank you very much, Mr. Griswold.
    Mr. Kibble, I was interested in your comments relative to 
the significant increase in removals or deportation. Are these 
formal deports, or are they voluntary deports, or are they a 
letter telling a person that they have to leave, or is it a 
green van trip to the border and released? Could you give me a 
definition of a removal or a deport?
    Mr. Kibble. Sir, when we reference removals, we are talking 
to the formal orders of removal as well as voluntary returns. 
And when you look at our results over the last 2 years, we have 
removed--and this means people leaving the country--we have 
removed more than we ever have in our history.
    Mr. Gallegly. Well, what is the percentage of voluntary 
removals versus formal deports?
    Mr. Kibble. I don't have that number readily available.
    Mr. Gallegly. I remember listening to Janet Reno not too 
many years ago, when she said, in the southern California area, 
the U.S. Attorney's district there, that their policy was that 
they didn't initiate any formal deports until after there had 
been a second felony conviction.
    Have you ever heard that before, from a policy standpoint, 
of a United States attorney?
    Mr. Kibble. I am not familiar with that, sir. But----
    Mr. Gallegly. What is the criteria for formal deportation?
    Mr. Kibble. If someone is unlawfully in the country, they 
enter into proceedings, and they receive their due process. 
And, ultimately, they, you know, they may have a----
    Mr. Gallegly. So anyone that doesn't agree to voluntary 
deportation, you would immediately start the process, keep them 
in custody until they were formally deported?
    Mr. Kibble. Sir, we would place them in removal 
proceedings. However, we have a limited detention space, so we 
have to make smart----
    Mr. Gallegly. How many show up for their dates, what 
percentage?
    Mr. Kibble. I don't have that number handy----
    Mr. Gallegly. Well, I could just tell you, I had a visit to 
Kennedy a few years ago and also to Miami. And when they had 
individuals come into the country and they would appeal the 
denial of entrance, of those that were considered low flight 
risk and were given a date and a paper to appear, the ones that 
were considered low flight risk, 94 percent never returned. 
That is pretty well-documented, and I did a white paper many 
years ago on that. But----
    Mr. Kibble. May I respond, sir?
    Mr. Gallegly. Sure.
    Mr. Kibble. We are essentially resourced to remove roughly 
400,000 people a year. So we have tried to take that resourcing 
and use it wisely, prioritizing threats to public safety and 
national security; border violators, recent border violators; 
as well as immigration fugitives and others that try to game 
the system in terms of our border controls.
    I think every one of those removals----
    Mr. Gallegly. I don't doubt that. But ``every one'' and ``6 
percent'' is a different situation.
    My concern is, what is the real definition of removal? Are 
they really removed? Are they given notice? Are they put into 
a----
    Mr. Kibble. They are removed from the country, sir.
    Mr. Gallegly. Okay. What is your recidivism rate? How many 
do you--now you have great IDENT system, right? And the IDENT 
is pretty conclusive, when you re-arrest someone, it is pretty 
easy to tell. Could you tell me if you have ever had anyone 
that re-entered the country that had been deported?
    Mr. Kibble. Oh, of course we have folks that have re-
entered the country that had been deported, sir.
    Mr. Gallegly. More than 10 times, the same person? Ever 
heard of that?
    Mr. Kibble. I know there have been instances of that.
    But, I mean, to the larger point, sir, I mean, we are doing 
everything we can with the resources that are available. And we 
are breaking records, removing----
    Mr. Gallegly. But the question is, a formal deport versus a 
voluntary deport, the difference, as I understand it--and 
correct me if I am wrong--if you give them the option of 
voluntary deportation and then they re-enter the U.S., it is 
basically, ``Well, hey, you have to go home again.'' However, 
if you have been formally deported and you re-enter the 
country, it is a felony; is that not correct?
    Mr. Kibble. Yes, sir. I mean, a re-entry after deportation 
is a violation----
    Mr. Gallegly. Okay, right.
    One other quick question before my time runs out. The GAO 
has expressed criticism on I-9 audits, saying that businesses 
simply view these civil fines as kind of a part of doing 
business, just like you would to pay for any other type of 
overhead costs.
    Would you say that is a fair assessment?
    Mr. Kibble. No, sir, I would not. If you look at the fines 
as they were a couple years ago, we issued 18 final orders for 
about $675,000. That has dramatically increased to----
    Mr. Gallegly. But are they----
    Mr. Kibble [continuing]. Almost $7 million.
    And, sir, the way they are contesting these in court and 
entering into settlements and aggressively trying to negotiate, 
it is clear to me that they are taking these fines very 
seriously.
    We have also reformed the system so that there is less room 
for mitigation, as we have seen in years past. So these are 
meaningful.
    Mr. Gallegly. Do you find that courts are usually going the 
maximum, or are they a little more lenient with--whether it is 
a, let's say, a $500 fine per head or maybe even a $100 fine?
    Mr. Kibble. Sir, in the context of civil fines, we are 
generally setting those based on the violations that we 
identify during our audits. In the context of judicial fines 
and forfeitures, there, again, we are breaking records--$36.6 
million in judicial fines and forfeitures.
    Mr. Gallegly. Has it been effective?
    Mr. Kibble. Sir, I believe the strategy is working. There 
is always room to continue to mature it. But, to the extent 
that we can touch more businesses with both criminal and civil 
sanctions and also outreach and training for the employers that 
want to be on the right side of the law, we will establish that 
culture of compliance that we are looking for.
    If I could just address one other point you mentioned, sir, 
having to do with the recidivism. Because, again, worksite has 
to be looked at in the context of the broader immigration 
enforcement strategy. We have unprecedented numbers of 
prosecutions for illegal re-entry. In fact, we are using our 
own attorneys, almost 55 of them, to help the U.S. Attorney's 
Office in prosecuting these violations of re-entry.
    Mr. Gallegly. Thank you very much.
    You know, I am going to try to lead by example around here, 
and I overstayed my red mark, and I apologize for that.
    The gentlelady from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I just have a few 
questions of my own.
    First, Mr. Krikorian, just briefly, you, in your testimony 
today, discussed a recent study by the Center for Labor Market 
Studies at Northeastern University that purported to 
demonstrate that recent immigrants were gaining employment 
while Americans were losing their jobs. And then you cited a 
story by Reuters in your written testimony, not the report 
itself.
    Have you seen the report itself and analyzed it?
    Mr. Krikorian. No. I have looked for it. No, I am not sure 
it is--I think they did it for Reuters, so I am not----
    Ms. Lofgren. Well, I asked my staff to call the Center and 
ask for the report, and they refused to give it to us. And they 
said it isn't being made public. I just wondered if you had a 
copy----
    Mr. Krikorian. No, I do not.
    Ms. Lofgren [continuing]. If we could get it from you.
    Mr. Krikorian. It looked like--it said ``exclusive for 
Reuters,'' so I assume they paid for it or something like that.
    Ms. Lofgren. Yeah. I will just advance my view that if 
something can't ever be examined by people, I am not going to 
rely on it.
    Mr. Griswold, we appreciate your testimony. And I am 
wondering, the Center for American Progress reported that, in 
their analysis, the direct cost on government to deport all 
undocumented workers would be $285 billion in 5 years. Now, 
that, as I understand it, considered apprehension, detention, 
processing, transportation, enforcement costs, but it didn't 
take a look at the broader impact, what would the impact be on 
the economy, of pulling out 11 million people.
    Have you looked at it? Do you have insights that you could 
share on what those costs would be to the American public?
    Mr. Griswold. Yeah. In a word, the costs would be huge.
    It is interesting: The Cato study that I mentioned found a 
significant benefit for American households if we had increased 
legal immigration. It found a cost of $64 billion a year, just 
from reducing low-skilled immigration by 30 percent. Those 
costs would increase significantly if we were able to reduce it 
even more.
    An interesting thing, Ms. Lofgren, is that, 6 months after 
the Cato study came out, the Center for American Progress came 
out with another study that showed very similar economic gains 
from a legalization program. And so, here you have the Cato 
Institute--libertarian, free market--and the Center for 
American Progress--center-left--coming to the same conclusion, 
that low-skilled immigration is good for the U.S. economy. And 
suppressing it through, I think, futile efforts, but even if 
they could work and remove millions of low-skilled workers, we 
would pay a very high price as an economy. And, as you have 
pointed out and others have pointed out, it would cost jobs in 
upstream and downstream industries, as well.
    Ms. Lofgren. Let me ask you this, if I can. You know, I am 
of the opinion--and I am glad that Mr. Kibble is here.
    I am sorry I missed your testimony. I was detained coming 
back from the floor, but I did have a chance to read it and 
review it. And I appreciate that you have been given a job to 
do, you know, which is to enforce the laws we have. You have 
not been asked or tasked to reform the laws that we have. That 
is our job. And so, I am not going to criticize you for doing 
your job as outlined. But it just seems to me that it is a 
losing effort.
    I remember the first hearing that we had when I assumed the 
Chair of the Immigration Subcommittee and we had the career 
head of the border patrol as a witness, who was a very crusty, 
interesting guy. And it was his testimony to us that, if we 
could get the busboys and nannies out of the line, crossing 
illegally in the desert, he would appreciate it, so he could 
focus in on the drug dealers and the traffickers and the like.
    But he also suggested that we can't repeal the law of 
supply and demand. You know, we have failed to reform our laws 
so that this immigration system meets our needs, that it serves 
America's needs. And, consequently, we have a situation that is 
chaotic when we should instead have order.
    So I guess this isn't a question, more a statement of 
appreciation for you, Mr. Kibble. All of the stats--the number 
of people incarcerated--it is unprecedented numbers of people 
who have been deported. We are spending more money on the 
border today than in the history of the United States. We have 
more Border Patrol agents on the border than in the history of 
the United States. And yet we have this problem because we have 
failed--we, the Congress, have failed--to come to grips with 
our need to reform the system so it actually works for 
Americans.
    And, with that, the light is on. I would yield back, with 
thanks for Mr. Kibble and all the other witnesses. We don't see 
everything eye to eye, but we do appreciate your volunteering 
to testify here before us today.
    Mr. Gowdy. [Presiding.] Thank you.
    At this point, I will recognize myself.
    Special Agent Kibble, help me understand the dichotomy 
between misdemeanors and felonies, if they exist, with respect 
to immigration violations. Are there felonies and misdemeanors 
that employers could be charged with?
    Mr. Kibble. Yes, sir. In fact, the strategy factors in--one 
of the challenges in terms of criminal investigations of 
employer is that, in and of itself, knowingly hiring can be a 
misdemeanor offense. When we consider other aggravating 
factors, such as other egregious employment schemes that 
include harboring, smuggling, trafficking, then it rises to a 
felony violation. And, quite frequently, I mean, with limited 
resources, working with the U.S. Attorney's offices----
    Mr. Gowdy. Well, that is what I want to go to right now. 
How many felony criminal matters were opened in 2010 with 
respect to employers?
    Mr. Kibble. Well, we charged 196.
    Mr. Gowdy. A hundred and ninety-six.
    Mr. Kibble. I am sorry. What year did you ask, sir?
    Mr. Gowdy. Employers.
    Mr. Kibble. Last fiscal year, though?
    Mr. Gowdy. Yes, sir, 2010. And those were criminal matters 
that were opened or those were indictments?
    Mr. Kibble. Those were criminal arrests and indictments. If 
criminally charged----
    Mr. Gowdy. How many matters were opened and declined by the 
United States Attorney's Office?
    Mr. Kibble. I don't have those numbers, sir, but I can go 
back and look into it.
    Mr. Gowdy. Well, I guess what I am getting at is I am 
trying to understand whether this is a DOJ, a prosecutorial 
issue, where they are declining matters that you have 
investigated and put time and effort into, or if this is an 
administrative decision that has been made, not to go after 
employers?
    Mr. Kibble. Oh, no, sir. We are pursuing--I have been doing 
this for a little while now. As far as criminal charges against 
employers, we are pursuing them as aggressively as I have seen 
it in my personal experience. And, again, we have record-
breaking numbers to show for that.
    Mr. Gowdy. More criminal or civil pursuits?
    Mr. Kibble. Well, criminal charges against the employer, 
but then also record-breaking achievements in terms of our 
civil efforts to removal people from the country.
    Mr. Gowdy. Correct me if I am wrong. Employers sometimes 
have the option of paying a civil fine and avoiding criminal 
responsibility?
    Mr. Kibble. Well, sir, it is a multipronged strategy. And, 
oftentimes, the employers are in a tough spot in terms of 
having to triage and figure out whether documents that have 
been provided by the employee--by the illegal worker are, in 
fact, correct. So, as in any other white-collar crime 
investigation, it takes time to sort through that. And, in many 
instances, we may not be able to establish to meet that burden, 
in terms of knowledge on the part of the employer.
    Mr. Gowdy. Is there a different standard of proof required 
for the Administration of a civil fine than a criminal 
conviction?
    Mr. Kibble. Well, the civil fine, sir, is tied to the 
inspection of the Form I-9's. And there are technical and 
substantive violations. And after we do an audit, we will work 
with the businesses for a period of 10 days to resolve any 
technical violations.
    But then, if we have substantive violations that relate 
to--that make it difficult for us to verify a workforce, then 
we can fine for that violation, up to $1,100 a violation.
    Mr. Gowdy. How many employers went to the Bureau of Prisons 
last year for hiring illegal immigrants?
    Mr. Kibble. I don't know--I don't have the conviction of 
sentencing stats readily available, sir.
    Mr. Gowdy. Guess. Twenty? Ten? Five?
    Mr. Kibble. Sir, I mean, we criminally charged 196, but 
they are working their way through the process.
    Mr. Gowdy. Actual employers, people, not corporations, 
people.
    Mr. Kibble. No, people. Employers, human resource managers.
    Mr. Gowdy. A hundred and ninety-six?
    Mr. Kibble. I beg your pardon?
    Mr. Gowdy. A hundred and ninety-six in 2010?
    Mr. Kibble. A hundred and ninety-six, sir, we criminally 
charged.
    Mr. Gowdy. You will agree, I hope, that criminal 
consequences get people's attention more so than civil 
consequences?
    Mr. Kibble. Yes, sir, they do.
    Mr. Gowdy. There is a full range, a panoply of negative 
consequences that go along with a criminal convention that 
don't exist with a civil one.
    Mr. Kibble. That is correct, sir.
    Mr. Gowdy. Are you convinced that your department and the 
United States Attorney's Office are as aggressively pursuing 
the employers themselves as can be done?
    Mr. Kibble. Sir, with the tools that are available, 
absolutely.
    However, I would add that part of getting to that 
deterrence that we were looking for, to the point you are 
alluding in terms of the importance of a criminal charge, it is 
also important that we touch as many businesses as we can so 
that they all feel that, at one point or another, they could be 
engaged by ICE. And that is going to get us to a culture of 
compliance----
    Mr. Gowdy. But you concede with me, as a wonderful law 
enforcement officer, which I am sure you are, that nothing gets 
people's attention quite like seeing a colleague go to prison, 
agreed?
    Mr. Kibble. Absolutely. But this is an issue, though, that 
spans--that is more complex than that. I mean, we are----
    Mr. Gowdy. Tell me how it is more complex. We do it in 
every other category of crime. We send people to the Bureau of 
Prisons, whether it be for 6 months or 6 years or life. And 
that is how we deter criminal conduct.
    Mr. Kibble. That is absolutely correct, sir. And that is 
why we have record-breaking achievements in terms of our 
criminal prosecutions of employers.
    My point is, if we really want to deter and create a 
culture of compliance much more broadly--that is why the 
aggressive use of I-9's are so effective in terms of ultimately 
getting these employers, holding them accountable and getting 
them on the right side of the law.
    Mr. Gowdy. My time is up.
    I will recognize the gentleman from Puerto Rico, Mr. 
Pierluisi.
    Mr. Pierluisi. Thank you, Mr. Chairman.
    As my colleagues and I travel around our Nation, we hear a 
consistent message from the American people: Fix our broken 
immigration system by enacting comprehensive reform.
    Sensible worksite enforcement designed to identify and 
penalize those employers who violate Federal law is one 
important aspect of our Nation's approach to immigration 
policy. However, unless we do more, an enforcement-only 
approach will hurt the economy and cost American jobs over the 
long term.
    Although many people would rather not acknowledge it, 
undocumented workers play an important role in our economy by 
performing jobs that would otherwise largely go unfilled. 
Without their labor, for example, a large percentage of 
America's farms would close, leading to the loss of millions of 
upstream and downstream jobs held by U.S. workers.
    The undocumented workers who fill agricultural jobs sweat 
and toil for low wages and often work far away from their 
families. Because they have no legal status, often they and 
their employers do not pay taxes. These workers also have no 
rights that they can feasibly exercise, which results in a 
lowering of labor standards for all workers, including native-
born American workers.
    If we truly want to help law-abiding businesses and protect 
the rights of all American workers, we will find a way to bring 
undocumented workers out of the shadows and on to the tax 
rolls.
    The Obama administration should continue to focus its 
worksite enforcement on bad-actor employers who exploit the 
broken immigration system to undermine their competitors. By 
stopping employers who violate immigration and labor laws, our 
government would protect all workers, including native-born 
American workers, and help level the playing field for honest 
businesses.
    Illegal immigration is not a problem that happened 
overnight, by the way, and we cannot expect the Obama 
administration to solve it overnight, especially without reform 
of our Nation's immigration laws.
    Let me address my first question--and I know time will 
probably permit just one for now--to Mr. Kibble.
    I know that, in April of 2009, Secretary Janet Napolitano 
announced the shift in worksite enforcement strategy. As you 
have testified, this strategy included a commitment to 
emphasize enforcement against employers who exploit workers. 
This makes sense because employers who exploit workers are 
trying to game the system. Such employers undercut those who 
are trying to play by the rules. This not only harms good 
employers, but it drives down the wages and working conditions 
for all workers, including immigrants and U.S. citizens alike.
    Now, I have a statistic that troubles me. Worksite arrests 
have increased from 510 to 4,940 since 2002. That sounds good. 
In this same period of time, there have only been 90 arrests of 
company representatives.
    If we do not hold employers accountable, how can we expect 
to end this jobs magnet? So that is one question I raise to 
you. I mean, are we really addressing those employers?
    And, also, if you can expand on the way that ICE identifies 
and targets employers who abuse workers, I will really 
appreciate it.
    Mr. Kibble. Thank you for the questions, sir.
    We are aggressively pursuing criminal sanctions against 
employers, particularly with these aggravating factors of 
abusing and exploiting the workforce, harboring, smuggling, 
trafficking. We are going after them very aggressively. And we 
have a number of successes in terms of forced labor and other 
schemes that we have broken up.
    And, again, I get back to record-breaking results in terms 
of our criminal charges against employers--196. It has never 
been as high as that.
    To your other point, in terms of the human trafficking, DHS 
has the Blue Campaign. We have quite a focus on dealing with 
human trafficking. And it is important to make the distinction 
between trafficking and smuggling. Smuggling is transportation-
based. Trafficking is exploitation-based. So where we find 
elements of force, fraud, and coercion, we aggressively pursue 
these trafficking investigations.
    Now, our investigations start from leads, they start from 
tips, particularly with respect to human trafficking. We have 
18 full-time victim witness coordinators and 350 collateral 
victim witness coordinators. And the point of that is that, to 
successfully prosecute a trafficking scheme, it is important to 
have a victim-centered approach. Because to the extent we can 
enlist the aid of that victim as a witness, we will be able to 
more successfully prosecute the trafficker and, therefore, 
prevent that from occurring again and again.
    Mr. Pierluisi. Thank you.
    Mr. Smith. I thank the gentleman from Puerto Rico.
    And I would recognize the gentleman from Florida, Mr. Ross.
    Mr. Ross. Thank you, Mr. Chairman.
    Mr. Kibble, is there any role for State and local law 
enforcement, in terms of worksite enforcement?
    Mr. Kibble. I mean, to the extent, sir, that, in some 
instances--I just came--I was the special agent in charge in 
Denver. And we have had instances where State and local 
officers, as the front line, may identify schemes or even, in 
fact, egregious employment patterns that are referenced, that 
are referred to us for further investigation.
    Mr. Ross. Is that more the exception than the rule, would 
you say, that you would have State and local law enforcement in 
that particular capacity?
    Mr. Kibble. Well, in terms of classical police, yes. But we 
work very closely with a lot of State and local agencies that 
can assist us in terms of validating whether a workforce is 
authorized or not.
    Mr. Ross. The IMAGE program that has been created that 
allows for employers to voluntarily participate, how has that 
been? Has that been successful, in your experience?
    Mr. Kibble. I think it has been very successful. There are 
12 best practices that we promote through the IMAGE program. 
And the key here is that there are employers that we are trying 
to penalize, that we are trying to deter, but there are also 
employers that want to do the right thing but they need 
assistance in terms of scrubbing the workforce.
    So one of the key practices in IMAGE is to promote and 
encourage the use of E-Verify, in terms of validating----
    Mr. Ross. Right.
    Mr. Kibble. That is the best tool available for an employer 
to validate whether they have an authorized worker on their 
hands or not.
    Mr. Ross. Is there anything you would recommend in terms of 
incentivizing or, you know, expanding the opportunities for 
employers to want to participate in IMAGE?
    Mr. Kibble. In IMAGE?
    Mr. Ross. Yeah.
    Mr. Kibble. Well, the training that we offer, I will tell 
you, we have a fairly comprehensive program. Recommending and 
encouraging the use of E-Verify is one of them, but we also 
offer training in detection of fraudulent documents. And this 
is free. We offer training and outreach in sound hiring 
practices. We recommend other practices that help to maintain 
an authorized workforce. We also provide training in anti-
discrimination to aid the employer, as far as that concern.
    And we have offered training to roughly 14,000 employers 
through the IMAGE program.
    Mr. Ross. And it has been successful?
    Mr. Kibble. Yes, we have been pleased with the results.
    Mr. Ross. Good.
    Mr. Krikorian, how would you respond to Mr. Kibble's 
assertion in his preliminary report that, quote, ``Just 
targeting the employers who knowingly break the law is a 
successful strategy to deter unlawful employment when workers 
themselves are not prosecuted and free simply to find new 
jobs''?
    Mr. Krikorian. Well, I mean, there are two problems with 
that.
    The first is, unless you are actually arresting the illegal 
immigrant workers, you are not creating the environment within 
which you can see an attrition of the illegal population. In 
other words, they will just walk down the street----
    Mr. Ross. And take one job after the next one.
    Mr. Krikorian. But the other side of it is that one of the 
best ways of getting leads and evidence about crooked employers 
is actually to do the raids. In other words, this is why I 
referred to that meatpacking plant in Iowa, that the State 
authorities had just not been able to, sort of, pierce the veil 
and really get effective information on what was going on. It 
was only after the arrests.
    And they arrested 400 illegal immigrants on a variety of 
genuine criminal charges. These were people stealing American 
children's identities, ruining their credit histories or, if 
they didn't even have credit histories yet, ruining their 
futures. Their ability to get student loans in the future would 
have been compromised. So these were people engaged in serious 
criminal activity.
    But then they were able to find out much better what was 
going on inside the firm in a way that they just would not have 
been able to had they not conducted that raid.
    Mr. Ross. You also wrote extensively, I think, about 
modifying driver's licenses to get a better and more secure 
form of ID. Is that something you can expound on, in terms of 
how you think it might be beneficial in worksite enforcement?
    Mr. Krikorian. Well, obviously, the key to the I-9 process, 
even when it has E-Verify to back it up, is the ID that people 
are showing.
    Mr. Ross. Right.
    Mr. Krikorian. And Congress passed the Real ID Act, and 
States have been making real progress in bringing their 
licenses up to Federal standards. And the point there is to 
make sure that, when you present a document to an employer, you 
actually are who you say you are.
    And because, frankly, most employers who are employing 
illegal immigrants aren't crooks, they don't really know what 
they are doing. They may suspect somebody is an illegal 
immigrant, but there is a limit to what they can do about it.
    That is why we need, sort of across the board, both better 
standards for driver's licenses, as well as E-Verify and a 
variety of other methods, so that employers will know when a 
job seeker is lying to them and when he is telling the truth.
    Mr. Ross. Thank you.
    I see my time is up.
    Mr. Gowdy. [Presiding.] Thank you, Mr. Ross.
    The Chair would recognize the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you.
    Let me thank the Chairman for holding this hearing, along 
with the Ranking Member, and express my apologizes. This is 
organizational week, and, as the Ranking Member on 
Transportation Security, we were organizing our Subcommittee 
agenda for the 112th Congress.
    But I do want to thank the panelists for being here and 
indicate to some of the Members who are on this Committee that 
two of these panelists are old friends. This is dj vu. This is 
same story, same place, and same results.
    So I really would hope that this Committee would have the 
courage of convictions to really do something about immigration 
reform. Because, otherwise, Mr. Griswold, we could be here in 
2025, speaking the same song--singing the same song, and 
speaking it for those of us who can't sing.
    So let me start with Mr. Kibble, to ask him--and I am 
sorry, Mr. Kibble. How long have you been in your position?
    Mr. Kibble. In the position of deputy director?
    Ms. Jackson Lee. Yes, sir.
    Mr. Kibble. For about 2 months.
    Ms. Jackson Lee. Two months, sir. That is okay. You know, 
this is a new Administration. And were you associated with ICE 
previously?
    Mr. Kibble. Yes, I have been in ICE and the legacy Customs 
Service before that since 1994.
    Ms. Jackson Lee. All right, sir. Would you consider your 
work a failure?
    Mr. Kibble. No, not at all.
    Ms. Jackson Lee. Well, why don't you explain that to me? 
Because it hasn't been personalized, but we have characterized 
ICE work as a failure. Do you consider that you have not been 
steadfastly conforming to the laws of which govern ICE 
enforcement, your internal enforcement work?
    Mr. Kibble. I would just say, ma'am, that we--you know, in 
law enforcement in general, you deal with a world of finite 
resources. And, particularly in Federal law enforcement, we 
look to target the most effective piece or part of the 
enterprise. As we do in drug trafficking, we focus on the 
supplier.
    Ms. Jackson Lee. To grab you the biggest pull, the biggest 
return.
    Mr. Kibble. So, in this case, you know, in worksite 
enforcement, there is a relentless, a surgical, a laser-like 
focus on holding employers accountability and making sure they 
are on the right side of the law. Because, in the final 
analysis, they are the ones that are supplying the jobs.
    So it is just--it is balancing--it is making the most 
impact, achieving the greatest good with the resources that are 
available.
    Ms. Jackson Lee. I compliment you on that, because I will 
be the first to raise my hand and say that I was appalled at 
the raids. You did that a couple years ago. And there may be 
some more discreet ones. And some would argue that that was a 
big celebration. In my district, people were falling off 
ladders and pregnant women were being trampled. It was not 
effective.
    What I understand you to say now is that you are 
meticulously going to the employer, holding their feet to the 
fire, and ensuring that they are complying. Is that my 
understanding?
    Mr. Kibble. That is correct, ma'am. But an important 
component of that strategy, for that to work, to have that 
culture of compliance, we have to touch as many businesses as 
possible, large and small----
    Ms. Jackson Lee. So you need more resources to answer the 
call of those who say the employer enforcement is a good thing. 
Is that what I hear you saying? Or you have already touched all 
the businesses you think you need to touch?
    Mr. Kibble. No. No, no, no. We are constantly looking at 
ways, and particularly with aggressive I-9 audits, to get to 
that culture of compliance, to address as many of those 
businesses, so that we can get to that deterrence, that climate 
of accountability.
    Ms. Jackson Lee. And do you see anything in the Obama 
administration, President Obama administration, that 
wouldcounter you enforcing the law and being effective in 
touching employers and letting them know how serious we are 
about focusing on the hiring of documented individuals? Do you 
see anything to the contrary?
    Mr. Kibble. Ma'am, the key thing for us to do is to just 
take the resources that we have, and particularly as a career 
officer, to take the resources that are available, the policies 
and the laws as we find them, and make aggressive use of them.
    Ms. Jackson Lee. But nobody has called you from the White 
House or from General Holder's office and said, ``Stop doing 
what you are doing''?
    Mr. Kibble. No.
    Ms. Jackson Lee. All right.
    Mr. Griswold, where can we go, seriously, on this issue of 
immigration reform? Enforcement is good. I can't imagine that 
this Administration is--the Administration has the greatest 
number of undocumented coming through and it is an open door. 
It is not. But if we don't fix the comprehensive aspect of it, 
if we don't regularize individuals, are we going to be here in 
2025 like I said?
    Mr. Griswold. I think we can make an appointment. If we 
just continue with enforcement only, I think we are going to be 
here for years and years, wrestling with the same problem.
    I think Homeland Security Secretary Napolitano said it 
well; it needs to be a three-legged stool. You need to have 
smart enforcement. You need to have some way of legalizing 
those who are here. And you have to have a robust worker 
program so we can accommodate the future labor needs of our 
economy.
    It is simple supply and demand. We have demand for these 
workers. The supply of Americans who have traditionally filled 
these jobs is shrinking. Immigrant workers have filled the gap. 
We don't allow them to come in legally in sufficient numbers. 
It is not that there are no Americans who will do these jobs; 
there is just not sufficient number in these industries.
    So we need to change our law. Otherwise, we are going to be 
wasting billions of dollars, hundreds of people are going to be 
dying at the border each year. We need to change our law. And 
only Members of Congress can do that.
    Ms. Jackson Lee. And I don't want the bad guys to rule. 
This kind of process allows bad guys to take over the borders 
of Texas, California, Arizona, because they are in charge. The 
human smugglers--they are all in charge.
    This last point--and I thank the Chairman for his 
indulgence--this very last point. Did you propose--and I am 
sorry; as I said, I was in an earlier meeting--did you propose 
to take away American jobs? Are you intending to take away 
American jobs with how you are configuring, reforming the 
immigration system? You have to get on the record to say what 
you mean as it relates to American jobs and Americans not being 
able to have work.
    Mr. Griswold. Yeah, quite the opposite. These low-skilled 
immigrants complement American workers. They allow middle-
income Americans to work in these important industries. These 
low-skilled immigrants actually attract investment. They create 
job opportunities in upstream and downstream industries for 
middle-class Americans, it has been shown. If we were able to 
deport those 7 million or 8 million low-skilled workers in the 
workforce, it would be a disaster for the U.S. economy.
    Ms. Jackson Lee. I thank the Chairman for his indulgence.
    And, Mr. Griswold, I look forward to engaging you.
    Mr. Cutler, thank you so very much. You are a longtime 
colleague.
    And, Mr. Krikorian, we have been together before. We thank 
you.
    And, Mr. Kibble, thank you so very much.
    I yield back.
    Mr. Gowdy. Yes, ma'am. I thank the gentlelady from Texas.
    And I would like to thank all of the witnesses. The weather 
is inclement, the voting schedule is unpredictable, to say the 
least. And you have been very patient. And we have all 
benefitted from your expertise and your patience and 
collegiality with us.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond as promptly as they can so their answers may be made 
part of the record.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion into the 
record.
    With that, again, I would like to thank all the witnesses.
    This hearing is adjourned.
    [Whereupon, at 3:15 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

            Letter from Lynn Shotwell, Executive Director, 
           American Council on International Personnel (ACIP)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
